<html>
<title> - AVIATION CONSUMER ISSUES: EMERGENCY CONTINGENCY PLANNING AND OUTLOOK FOR SUMMER TRAVEL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       AVIATION CONSUMER ISSUES:
                         EMERGENCY CONTINGENCY
                          PLANNING AND OUTLOOK
                           FOR SUMMER TRAVEL

=======================================================================

                                (111-36)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
49-955                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
ELLEN O. TAUSCHER, California        SHELLEY MOORE CAPITO, West 
LEONARD L. BOSWELL, Iowa             Virginia
TIM HOLDEN, Pennsylvania             JIM GERLACH, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A. WESTMORELAND, Georgia
HARRY E. MITCHELL, Arizona           JEAN SCHMIDT, Ohio
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE COHEN, Tennessee               VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      BRETT GUTHRIE, Kentucky
JOHN A. BOCCIERI, Ohio
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Crites, James M., Executive Vice President of Operations, Dallas/
  Fort Worth International Airport, and Member, American 
  Association of Airport Executives and Airports Council 
  International-North America....................................    19
Fornarotto, Christa, Acting Assistant Secretary for Aviation and 
  International Affairs, U.S. Department of Transportation.......     4
Friend, Patricia A., International President, Association of 
  Flight Attendants-CWA, AFL-CIO.................................    19
Hanni, Kate, Executive Director, Flyersrights.org, Coalition for 
  Airline Passengers Bill of Rights..............................    19
Lobue, Nancy, Acting Assistant Administrator for Aviation Policy, 
  Planning, and Environment, Federal Aviation Administration.....     4
Meenan, John M., Executive Vice President and Chief Operating 
  Officer, Air Transportation Association........................    19
Scovel, III, Calvin L., Inspector General, U.S. Department of 
  Transportation.................................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    30
Costello, Hon. Jerry F., of Illinois.............................    31
Mitchell, Hon. Harry E., of Arizona..............................    37
Oberstar, Hon. James L., of Minnesota............................    39

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Crites, James M..................................................    43
Fornarotto, Christa..............................................    57
Friend, Patricia A...............................................    73
Hanni, Kate......................................................    87
Meenan, John M...................................................   104
Scovel, III, Calvin L............................................   114

                       SUBMISSIONS FOR THE RECORD

Fornarotto, Christa, Acting Assistant Secretary for Aviation and 
  International Affairs, U.S. Department of Transportation, 
  responses to questions from the Committee......................    69
Scovel, III, Calvin L., Inspector General, U.S. Department of 
  Transportation, responses to questions from the Committee......   131

[GRAPHIC] [TIFF OMITTED] T9955.111

[GRAPHIC] [TIFF OMITTED] T9955.112

[GRAPHIC] [TIFF OMITTED] T9955.113

[GRAPHIC] [TIFF OMITTED] T9955.114

[GRAPHIC] [TIFF OMITTED] T9955.115

[GRAPHIC] [TIFF OMITTED] T9955.116

[GRAPHIC] [TIFF OMITTED] T9955.117

[GRAPHIC] [TIFF OMITTED] T9955.118



HEARING ON AVIATION CONSUMER ISSUES: EMERGENCY CONTINGENCY PLANNING AND 
                       OUTLOOK FOR SUMMER TRAVEL

                              ----------                              


                        Wednesday, May 20, 2009,

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommmitee met, pursuant to call, at 2:33 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommmitee] presiding.
    Mr. Costello. The Subcommmitee will come to order. The 
Chair will ask that all Members, staff, and everyone turn 
electronic devices off or on vibrate.
    The Subcommmitee is meeting today to hear testimony on 
aviation consumer issues, focusing on emergency contingency 
planning and the outlook for summer travel. I will give a brief 
opening statement and then will ask the Ranking Member, Mr. 
Petri, for any remarks or his opening statement. Then we will 
go to the first panel of witnesses.
    I want to welcome everyone today to our Subcommmitee 
hearing on Aviation Consumer Issues: Emergency Contingency 
Planning and the Outlook for Summer Travel. As all of you, I 
think, on this panel know and many in the audience know, the 
Subcommmitee promised to hold this hearing some time ago. We 
said that in April or May we would hold a hearing on this 
issue. That is the reason we are here today.
    The Subcommmitee continues to examine consumer issues and 
airline delays to provide accountability and oversight of the 
Department of Transportation, the Federal Aviation 
Administration, and the airline industry. In the 110th 
Congress, this Subcommmitee held a series of four hearings and 
one roundtable meeting on flight delays and consumer issues. 
Today, we will examine the progress and remaining challenges to 
reduce flight delays and improve airline consumer protections.
    Although delay and consumer service statistics show 
improvement overall, we are interested in hearing from the 
witnesses to learn if these trends can be maintained when air 
travel rebounds. The downturn of the economy has had a 
significant impact on the airlines. Roughly 13 percent of 
domestic scheduled flights were cut. Airfares increased and new 
fees for services such as checked baggage were initiated. This 
led to a 10 percent decline in passengers compared to the same 
period in 2007. With fewer flights and less passengers, airline 
delays decreased. According to the Bureau of Transportation 
Statistics, approximately 20 percent of flights were delayed or 
canceled thus far through March of 2009, the lowest level since 
2003.
    Despite this decline in delays nationwide, New York remains 
a critical choke point in the system. I have requested that the 
DOT Inspector General examine how the delays in the New York 
regional airspace affect the rest of the national airspace 
system. I look forward to hearing the IG's preliminary 
assessment today.
    According to the FAA, 75 percent of delays nationwide in 
the summer of 2007 resulted from congestion surrounding New 
York. The DOT IG will report today on progress made by the FAA 
to implement the 77 operational and infrastructure improvements 
that the New York Aviation Rulemaking Committee recommended.
    Today's hearing will also touch on how the aviation 
industry plans and reacts to health emergencies and what 
precautionary steps have been taken to protect passengers and 
those who work onboard the aircraft. This is especially 
important with the recent outbreak of swine flu.
    The airline industry plays an important role in assisting 
public health officials to control the spread of communicable 
diseases. The outbreak of SARS and avian flu have shaped how 
Government agencies and airlines prepare and plan for public 
health emergencies to protect public health and diminish major 
travel disruptions.
    Air travel continues to be safe despite the recent swine 
flu outbreak. Airports and airlines are voluntarily increasing 
their efforts to clean public spaces thoroughly and inform the 
public on the latest travel and health advisory notices. Flight 
attendants also play a critical role in screening passengers 
for flu-like symptoms and taking precautions to ensure 
passengers are protected from exposure to the viruses.
    The hearings we held in the 110th Congress greatly shaped 
the consumer protection provisions incorporated in House of 
Representatives 915: FAA Reauthorization Bill of 2009. 
Tomorrow, the House of Representatives will consider this 
legislation. I will look forward to working with our friends in 
the other body to pass a final bill that includes strong 
consumer protections.
    With that, I again want to welcome all of you here today. I 
especially welcome our witnesses. I look forward to hearing 
your testimony.
    Before I recognize Mr. Petri for his opening statement, I 
ask unanimous consent to allow two weeks for all Members to 
revise and extend their remarks, and to permit the submission 
of additional statements and materials by Members and 
witnesses. Without objection, so ordered.
    At this time, the Chair recognizes the Ranking Member of 
the Subcommmitee, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. I am also 
pleased to welcome our witnesses here today as we again 
consider airline congestion and consumer services.
    Since the last Subcommmitee hearing on this topic, the 
airline industry has changed dramatically. First, due to the 
high price of fuel last spring and summer, airlines were forced 
to make significant capacity cuts at the end of last summer. 
Second, airlines have been dealing with a steep drop off in 
demand, as has the rest of the economy, caused by the current 
economic downturn. The result has been a dramatically 
contracted industry.
    With the contraction of the airline industry, there has 
been a corresponding decrease in delays across the national 
airspace system. According to statistics offered by the 
Department of Transportation Office of Inspector General, 
delays nationwide have decreased an average of 19 percent. 
Almost every statistical metric collected by the Department 
portrays an industry with better on time performance and 
customer satisfaction.
    However, it is my understanding that the Nation's busiest 
airports, the hubs of the air transportation network, have not 
seen as dramatic a decrease in traffic nor the corresponding 
reduction in delays. I am interested in hearing from the 
Inspector General about what steps the FAA is taking to address 
these persistent choke points.
    Last year the FAA identified 77 initiatives that in 
conjunction with the New York Airspace Redesign project would 
help unlock the New York airspace. I am interested in hearing 
about the FAA's progress in implementing these initiatives, as 
well as the Inspector's General assessment of whether or not 
these initiatives effectively address congestion problems.
    Also, I am interested in hearing about the progress of the 
Department of Transportation rulemaking now underway to address 
consumer protections. Last Congress, this Subcommmitee worked 
in a bipartisan fashion to address consumer protections in the 
FAA Reauthorization Bill. I am pleased that those provisions 
are a part of the Reauthorization Bill to be considered on the 
Floor this very week.
    We all understand that weather is the wild card factor in 
aviation and there is not much we can do about it. But there 
are improvements that can be made in the near term to help 
avoid frustrating delays. We are witnessing a system in 
desperate need of new, advanced technologies in the air and 
increased capacity on the ground. If history is any guide, 
passenger demand and increased traffic will rebound with the 
economy. The FAA must use this lull as an opportunity to get 
ahead of the next crisis. While NextGen will offer some 
efficiencies, it alone will not solve congestion. Initiatives 
undertaken by the stakeholders to address this dilemma sooner 
rather than later are critical to get out of this problem so 
that we may prevent future aviation travel problems.
    Both the Government and industry witnesses will provide an 
update on the initiatives they have implemented since our last 
hearing on this topic. I am also interested in hearing exactly 
what impact they predict these efforts will have on the 
traveling public this summer.
    With that, I thank the Chairman and look forward to the 
witnesses' testimony.
    Mr. Costello. The Chair thanks the Ranking Member.
    Let me introduce our first panel of witnesses, but let me 
make an announcement before I do. The Rules Committee will be 
meeting in just a few minutes to hear testimony from Chairman 
Oberstar, Ranking Member Mica, Mr. Petri, and myself so Mr. 
Petri and I will be leaving to go to the Rules Committee. A 
number of amendments have been filed and we are going over to 
testify on the bill and on the rule before the Rules Committee. 
I have asked the gentleman from Iowa, Mr. Boswell, to Chair the 
hearing until we can return, if in fact we get done in that 
period of time before you are finished with this hearing. He 
has graciously offered to Chair this hearing.
    Let me introduce the witnesses. I will ask to begin the 
testimony as we, Mr. Petri and I, have to depart.
    But we welcome Ms. Christa Fornarotto, the Acting Assistant 
Secretary for Aviation and International Affairs with the U.S. 
Department of Transportation. She used to be a member of this 
staff and was my Legislative Director for nine years before 
going to the Department of Transportation. So we welcome her 
back before the Subcommmitee. We make a commitment that we are 
going to have you back often.
    Ms. Nancy LoBue is the Acting Assistant Administrator for 
Aviation Policy, Planning, and Environment with the FAA.
    The Honorable Calvin Scovel, III is the Inspector General 
for the U.S. Department of Transportation. He has testified 
before this Subcommmitee many times and has done excellent work 
for this Subcommmitee and for our Country.
    With that, the Chair would remind our witnesses that your 
entire statement will be entered into the record. We would ask 
you to summarize your testimony in five minutes. With that, the 
Chair recognizes Ms. Fornarotto.

TESTIMONY OF CHRISTA FORNAROTTO, ACTING ASSISTANT SECRETARY FOR 
    AVIATION AND INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF 
TRANSPORTATION; NANCY LOBUE, ACTING ASSISTANT ADMINISTRATOR FOR 
 AVIATION POLICY, PLANNING, AND ENVIRONMENT, FEDERAL AVIATION 
 ADMINISTRATION; AND CALVIN L. SCOVEL, III, INSPECTOR GENERAL, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Fornarotto. Mr. Chairman, Congressman Petri, and 
Members of the Subcommmitee, thank you for inviting me to this 
hearing. I appreciate the opportunity to discuss with you and 
the Subcommmitee aviation consumer issues. Specifically, I will 
be discussing the status of our current consumer protection and 
regulatory compliance initiatives, and our work in coordination 
with other Federal agencies in connection with the H1N1 
outbreak.
    In 2007, complaints by airline consumers filed with the 
Department spiked sharply. This spike was in part due to the 
deteriorating on time performance and incidents in December 
2006 and February 2007 in which passengers onboard many 
aircraft were stranded for hours on airport tarmacs while 
waiting for their flights to take off.
    Over the last two years, however, data reported to the 
Department show improvements in the quality of air service. For 
example, for the first quarter of 2009, air service complaints 
were down 30 percent compared to the first quarter of 2008 and 
down 25 percent compared to the first quarter of 2007. In 
another example, for the first quarter of 2009, the on time 
performance rate was 79.2 percent compared to the 70.8 percent 
rate during the first quarter of 2008 and the 71.4 percent rate 
during the first quarter of 2007.
    Although these statistics show a trend in the right 
direction, they do not necessarily indicate that the underlying 
problems that they measure are being solved. Rather, much of 
the improvement may be attributable to capacity cuts by the 
airlines. With this in mind, the Department is committed to 
protecting consumers and ensuring that the quality of air 
service continues to improve even when airlines return to 
adding capacity as the economy recovers.
    We believe that consumers are entitled to strong and 
effective protections when traveling by air. We believe more 
can and will be done. In particular, we are focused on a notice 
of proposed rulemaking issued last December proposing to 
enhance airline passenger protections. It suggests (1) 
designating the operation of a chronically delayed flight as an 
unfair and deceptive practice, (2) requiring carriers to adopt 
contingency plans for lengthy tarmac delays and to incorporate 
them into their contract of carriage, as well as (3) having 
customer service plans and incorporating them into their 
contract of carriage. Finally, it suggests an audit of their 
compliance with their plans.
    While I cannot discuss the specific issues involved in an 
active rulemaking before the Department, we are currently 
evaluating the NPRM and the comments filed in response to it. 
We will determine the next steps associated with this NPRM once 
we are through with our evaluation.
    Regarding the H1N1 flu outbreak, let me start by 
reiterating earlier comments by Secretary LaHood: It is safe to 
fly. One of the reasons it is safe to fly is that the 
Department of Transportation, together with several other 
Government agencies, has been working hard to ensure that our 
aviation system is prepared to handle the kinds of concerns 
raised by the recent H1N1 outbreak. Specifically, the 
Department has been participating for several years in a 
Pandemic Planning and Preparedness Working Group led by the 
Homeland Security Council. Consequently, when H1N1 broke out, a 
response scheme was already in place and we were ready to take 
immediate action.
    The planning components and exercises previously conducted 
by the Department ensured that DOT staff could rapidly and 
appropriately respond to H1N1 as the situation warranted. Over 
the weeks following the initial outbreak, the measures taken 
and the communications initiated were scaled up and then down 
as more information about the virus became available.
    In closing, Mr. Chairman, I again want to reiterate that 
the Department is committed to protecting consumers. We look 
forward to working with Congress and all stakeholders to 
achieve this goal. Thank you for the opportunity to testify 
today. I will be happy to answer any questions or comments you 
may have.
    Mr. Boswell. [Presiding] Thank you. Ms. LoBue?
    Ms. LoBue. Chairman Costello, Ranking Member Petri, Members 
of the Subcommmitee, and Mr. Boswell, thank you very much for 
having me here today to discuss the outlook for the summer 
travel season.
    I appreciate this Committee's concern about congestion and 
delays. No one wants a repeat of the summer of 2007. That is 
why NextGen is the necessary technology leap that expands 
capacity to meet demand. It improves the passenger experience 
while enhancing safety and it reduces congestion, noise, and 
emissions.
    Even in the face of falling passenger demand and a reduced 
number of airline flights, we still experience congestion in 
our busiest airspace. We know that we must be poised to handle 
demand that will surely return as the Nation's economy 
improves. Secretary LaHood has made clear that accelerating 
NextGen is a key priority for him and this Administration. We 
appreciate the support that this Committee as well as Congress 
as a whole has given us as we move forward with NextGen.
    Nationwide, the FAA has been putting a range of solutions 
into place. New runways provide significant capacity and 
operational improvements. As you know, we opened three new 
runways in November at Seattle, Dulles, and O'Hare. We also 
completed a runway extension at Philadelphia in February. We 
have several other runway projects in development over the next 
several years to increase capacity and reduce delays for the 
flying public.
    The FAA has been highly proactive in anticipating and 
planning to reduce delays nationally. We began our summer 2009 
planning last October. We have met with the air carriers and 
other stakeholders. We are monitoring airline schedules six 
months into the future. We are ready to respond with congestion 
action teams to any airports where schedule increases appear 
likely to increase delays significantly.
    We have already seen these improvements pay dividends. Last 
summer, we saw improvements in delays over the summer of 2007. 
In New York, on time performance, average total delays, and the 
number of operations with long delays all improved in the 
summer of 2008 compared to the summer of 2007. As we gear up 
for the summer of 2009, we are continuing our work on 
implementing measures to minimize delays.
    Summer thunderstorms typically mean increased delays but we 
expect on time performance to be higher nationally than last 
summer with the reduction in flights by the airlines. Despite 
the downturn in traffic, FAA is continuing to work aggressively 
to implement operational and structural improvements so we are 
prepared to handle the uptick of traffic in the future.
    Now in New York, we haven't seen the same volume of 
downturn in either traffic or delays. We are also anticipating 
some impact on operations caused by various runway construction 
improvements. The Port Authority of New York and New Jersey is 
working on construction projects at JFK that will ultimately 
have delay benefits closed a runway there for the past few 
weeks and will close another runway there for much of next 
summer. Planning for that process is underway on how to 
mitigate delays. We will be reaching out further to the airport 
and other stakeholders as we move forward.
    In response to New York's unique situation, the FAA 
maximizes the use of airspace, especially in congested areas 
such as New York, through targeted airspace and procedure 
enhancements. For example, we are using RAPT, the Route 
Availability Planning Tool, to better work around bad weather 
to reduce delays this summer. We have also limited scheduled 
operations at LaGuardia, JFK, and Newark. In our ongoing 
efforts to reduce delays, the FAA plans to continue to keep the 
limits on scheduled operations in place at the New York 
airports while this Administration continues to consider its 
next steps with regard to long term congestion management 
programs.
    While we have a strong focus in New York because of its 
impact on the rest of the NAS, we continue to work to improve 
the safety and efficiency of the entire system nationwide.
    Mr. Chairman, Ranking Member Petri, Mr. Boswell, and 
Members of the Subcommmitee, this concludes my prepared 
remarks. I would be happy to answer any questions you might 
have. Thank you.
    Mr. Boswell. Thank you. Mr. Scovel?
    Mr. Scovel. Chairman Costello, Ranking Member Petri, Mr. 
Boswell, and Members of the Subcommmitee, I appreciate the 
opportunity to testify on the progress and challenges with the 
Department's and FAA's efforts to reduce flight delays and 
improve airline customer service.
    Since we last testified on this subject in April 2008, the 
aviation landscape has significantly changed as evidenced by 
flight cutbacks and new fees. The industry will continue to 
face uncertain times as airlines and airports respond to the 
economic downturn. This summer, while air travelers will likely 
see fewer delays due to reduced flight operations and other 
factors, they will also have fewer choices with respect to 
scheduled flights and destinations.
    In my statement today I will highlight three key points 
related to delays and customer service, the reasons for last 
year's reductions in delays, initiatives that can further 
reduce delays, and welcome progress in airline customer 
service.
    First, we saw reductions in delays from 2007. The decrease 
in delays was primarily driven by cutbacks in flights that 
airlines implemented in response to last year's spike in fuel 
prices and the softening economy. In addition, we saw changes 
in flight scheduling practices, with airlines increasing the 
time between arrival of an aircraft at an airport and its next 
departure. This increase in the turnaround time allows the 
airline to absorb inbound delays and minimizes the delay of 
subsequent flights.
    While overall air travel delays have improved, high levels 
of delay continue at larger congested airports such as Newark, 
JFK, and LaGuardia. Delays at these airports are particularly 
problematic because they have ripple effects nationwide.
    It is important to point out that although overall flight 
delays look favorable, history shows that traffic will rebound 
given the intrinsic value of air transport to the Nation's 
livelihood. FAA has an opportunity to position the Agency for 
when demand returns.
    This leads me to my second point. Near-term initiatives 
that can reduce delays, particularly at choke points such as 
the New York airports, must be pursued by FAA. As we noted in 
our March 2009 testimony, FAA must continue to pursue a number 
of short-term projects that can enhance the flow of traffic at 
congested airports. These include new airport infrastructure, 
airspace redesign, and performance-based navigation 
initiatives. These initiatives are critical interim measures 
that can reduce delays until FAA can better define the 
expectations, costs, and benefits of NextGen.
    Following record breaking delays in the summer of 2007, 
DOT's Aviation Rulemaking Committee, or ARC, recommended 77 
initiatives to reduce delays at the three New York airports. 
While FAA reports that more than one-third of the initiatives 
are complete, most of them are not used or are used 
infrequently. Additionally, it is not clear that the completed 
initiatives have reduced delays since FAA has no way to measure 
their impact.
    We believe it would be prudent for FAA to reevaluate the 
initiatives and determine what reasonably can be accomplished 
at the three New York airports. At this Subcommmitee's request, 
we will continue to review FAA's progress in implementing these 
initiatives.
    Third, DOT has made progress on the customer service front. 
With fewer planes in the air and the resulting slowdown in 
passenger traffic, there was also a drop in consumer complaints 
in 2008. These were down approximately 20 percent from 2007, 
and there were 25 percent fewer reports of mishandled baggage. 
In addition, the amount of compensation doubled for passengers 
bumped from their flights.
    More data are now collected on flights that are canceled, 
diverted, or returned to the gate to provide a better 
understanding of long, on-board delays. With airlines' advance 
schedules for summer 2009 showing scheduled flights down by 
about 5 percent from last summer, the expectation is that on-
time performance and corresponding customer satisfaction will 
hold steady or improve further.
    While these appear to be positive trends, these 
improvements were primarily driven by airline capacity cuts and 
service reductions and the corresponding decline in passenger 
traffic. It is therefore important for DOT to complete a 
critical rule that would provide enhanced protections to 
travelers. These include airline contingency plans for lengthy 
delays, designees to respond to complaints, and published delay 
and complaint data. Once finalized, DOT must work to position 
itself to oversee air carrier compliance with the new 
requirements included in the final rule.
    In addition, DOT should continue the good faith efforts of 
the national taskforce that developed a model contingency plan 
for dealing with long, on-board delays. The taskforce issued 
its report to the Secretary last November and offered general 
voluntary guidance to airlines, airports, Government agencies, 
and other aviation service providers.
    However, we think additional guidance is needed from DOT to 
include defining the time period that warrants efforts to meet 
essential needs of passengers caught in an on-board delay and 
determining how long to wait before deplaning them. We 
recognize that one size does not fit all but maintain that a 
range needs to be established.
    In conclusion, the U.S. civil aviation industry is 
remarkably resilient. History tells us the demand for air 
travel will rebound. Given that the improvements we have 
witnessed with respect to delays and airline customer 
satisfaction are largely attributable to airline reductions in 
service, the Department, FAA, and stakeholders must focus on 
fundamental changes that can boost capacity and reduce delays 
in both the short and long term. We will continue to monitor 
related efforts underway to enhance capacity and improve 
airline customer service.
    This concludes my statement, Mr. Chairman. I would be happy 
to answer any questions you or other Members of the 
Subcommmitee might have.
    Mr. Boswell. Thank you very much.
    For questions, I will start with Ms. Fornarotto. What has 
been the response to DOT's notice of proposed rulemaking on 
enhancing airline passenger protections? Could you kind of 
comment on that?
    Ms. Fornarotto. Sure. We have gotten a lot of comments from 
the proposed rulemaking. The comment period closed on March 9th 
and we are currently evaluating those comments. We are working 
as quickly as possible to get through them.
    Mr. Boswell. In your written testimony, you state that the 
DOT had a Department-wide pandemic influenza plan. What does 
the plan consist of? How were its principles applied during the 
H1N1 outbreak or concerns?
    Ms. Fornarotto. Over the last couple of years, we have been 
working with a variety of agencies to make sure that we did 
have a plan in place should something happen. We took those 
plans and we did apply them for H1N1.
    In regard to H1N1 specifically, we put together a response 
team. We had meetings every day. We had principal meetings at 
the White House. Our Deputy Secretary was involved; our Chief 
of Staff was involved. We made sure that information was 
disseminated not only to the public but also to the airline 
employees and to airports, making sure that as much factual 
information got out as quickly as possible. As more factual 
information became available, we scaled up and then down our 
response given the threat.
    Mr. Boswell. Thank you. Ms. LoBue, in your statement you 
state the FAA has established ``congestion action teams to 
respond to airports where delays appear to increase 
significantly.'' Can you explain what that really means?
    Ms. LoBue. After the summer of 2007, we looked at those 
areas where we might need short term actions based on what we 
saw airlines staffing up to handle, what they were projecting 
in the airline guide, and the seats they were selling. Those 
congestion action teams are targeted at where we are going to 
see significant delays because of a buildup of air traffic.
    Longer term, we see NextGen and many of the operational 
procedures and technologies that it promises giving us more 
long term relief.
    Mr. Boswell. Thank you. You also say in your testimony that 
30 of 77 ARC initiatives have been substantially completed. 
Could you give us a few examples of those 30? Has FAA seen an 
impact from the completed items?
    Ms. LoBue. Some of the projects of the 77 were terrific 
projects. One example is the Port Authority JFK example that I 
gave you in my oral statement. It is going to reduce ground 
delays by some efforts that have been put into the runway and 
the taxiways there to give more flexibility to air traffic and 
to the airlines in getting on and off to the gates. That is an 
example of a good project.
    There were some projects in the 77 that were not within our 
scope, things like knocking down the Ramada hotel to increase 
capacity at the airport. So it was really a brainstormed list. 
Many of them were good projects. Some of them were projects 
that I think we will continue to look at as capacity issues 
over the years, but that are not practical to do immediately.
    Mr. Boswell. Thank you. Mr. Scovel, would you agree with 
what she has just stated?
    Mr. Scovel. Partially, Mr. Boswell. We would take issue 
with FAA's statement that indeed 30 of the ARC's 77 initiatives 
have been substantially completed. It seems like everyone has a 
slightly different count. We would count 14 as being completed 
and having measurable benefits as acknowledged by the 
stakeholders, the Port Authority, and the Agency. Of those, I 
am recalling six are in play now and in regular use. Another 
eight have been completed. They have been documented. They are 
kind of kept on the shelf for when traffic and weather 
conditions would require them. We do anticipate that they will 
produce benefits when they are in use.
    With the remaining 16, however, the air traffic controllers 
have substantial problems with 5 and 11 have operational or 
technical difficulties. The applicability of those to 
congestion in the New York area isn't clear at all.
    Mr. Boswell. Well, thank you. You state one fact that led 
to the decrease in the number of delays was airline flight 
scheduling practices. Could you expound on that a little bit?
    Mr. Scovel. Yes sir, I would be glad to. Starting in the 
fall of 2008 with the reduction in the number of flights, the 
airlines also expanded by sometimes even just a few minutes the 
length of time that published schedules indicated a flight 
would be in the air. They also expanded by sometimes just a few 
minutes the length of time that an aircraft would be on the 
ground. Together, these changes had the effect of reducing 
delays because each airline flight was better able to match its 
published schedule. As a result of that, in part, the number of 
delayed flights was reduced from the fall of 2008. Those 
reductions continue today.
    Mr. Boswell. Thank you. Mr. Duncan?
    Mr. Duncan. Well, I apologize I didn't get here in time to 
hear the testimony. But you know, we had a hearing on some of 
this about a year ago. You probably covered some of this in 
your testimony that I didn't hear, but will you tell me what 
the Department and particularly what the airlines are doing, 
some of the things that have been done since we got into this a 
year ago?
    Ms. Fornarotto. From the Department's perspective, we 
completed a taskforce for model contingency planning that 
wrapped up at the end of 2008. We are taking that model plan, 
and sharing it with the airlines and the airports. As the IG 
said, it is voluntary at this point but we backed that up with 
a notice of proposed rulemaking. Comments closed on March 9th 
and we are currently reviewing those comments so we can go 
towards a final rule at some point this year. Our Enforcement 
Office has been stepping up their efforts as well.
    So you are seeing a full approach from the Department. I 
will also say, and the IG mentioned this as well, that we are 
changing how we report our statistics. You are now seeing us 
report long onboard tarmac delays so that consumers are also 
aware of what is happening. We are trying to communicate better 
with passengers and get information out there as best we can.
    Mr. Duncan. All right.
    Ms. LoBue. From the FAA's standpoint, we have done a number 
of things. You have seen nationally that we opened three new 
runways in November at Dulles, O'Hare, and Seattle. We opened a 
runway extension in Philadelphia. So we continue to work the 
infrastructure aggressively.
    I think you have seen a lot of focus on the New York area 
as it drove a lot of the delays in 2007. We put caps on those 
airports and the amount of air traffic that could fly in there. 
We worked collaboratively with the airlines to try and spread 
the traffic over the day to minimize those peak hours.
    This summer you have seen us particularly focus on using 
weather tools to try and minimize how much weather impacts the 
amount that those airports can handle on bad weather days. You 
have seen us do things like put in accelerated ground radar 
called the ASDE-X that will help with looking at some of the 
ramp delays and the staging, getting in and out of gates more 
quickly and to be better able to use those.
    Mr. Duncan. I have to tell you that when I Chaired this 
Subcommmitee, we went out to Seattle to hold a hearing about a 
proposed new runway there. We were met with over 1,000 
demonstrators against that runway. In fact, in the building 
where we were, they couldn't fit everybody in so the testimony 
was piped outdoors to where several hundred of the 
demonstrators were. When somebody would say something they 
liked, there was about a one or two second delay and then they 
would cheer. When they said something they didn't like, there 
would be about a two second delay and then we would hear all 
these boos coming from outside.
    But I will never forget how controversial that runway was. 
So you have brought it back to mind, though, when you just 
breezed over it quickly and said you have opened a runway in 
Seattle. Boy, sometimes those things are very controversial.
    Mr. Scovel?
    Mr. Scovel. Mr. Duncan, the airport infrastructure 
improvements that Ms. LoBue did mention have been significant 
factors in reducing congestion and delays between Washington 
Dulles, Chicago, and the Sea-Tac runway that you mentioned. 
They have improved the number of operations nationally that can 
be conducted by hundreds of thousands each year. So they are 
very significant.
    I would like to pick up on something that Assistant 
Secretary Fornarotto mentioned a few minutes ago. That was the 
Department's rulemaking efforts. I would like to give great 
credit to the Department for some finalized rules that it 
completed in the last year. It increased airlines' baggage 
liability limit and it doubled the amount of compensation for 
passengers who get involuntarily bumped. It has also 
strengthened the requirements by regulation for air passengers 
with disabilities. The proposed rulemaking that is now under 
consideration--and the Department is reviewing comments--takes 
further steps forward.
    However, I would take issue with what the Department 
proposes on one point. I would urge the Subcommmitee and the 
Department to do more, in fact. The proposed rule would require 
airlines to adopt contingency plans that would specify, among 
other things, the maximum tarmac delay that a flight could 
incur before the airline must meet passengers' essential needs. 
It would also require that passengers be deplaned if they are 
held for long periods of time on the tarmac. We think that 
provision in fact should go further.
    It should define what constitutes the extended period of 
time when passengers' essential needs will be met. We would 
also suggest to the Committee and the Department that a range 
on delay durations is appropriate before passengers must be 
deplaned. Many of the major carriers who belong to ATA 
themselves have specified in their customer service plans an 
upper limit of 5 hours before deplaning. What the Department or 
this Subcommmitee might consider in that range sounds to us 
certainly appropriate.
    Mr. Duncan. Thank you very much. Let me ask you this: One 
day I hear people say the economy is improving and the next day 
I hear it is not improving. Where are we in regard to passenger 
traffic and what do you expect over these next few months? Have 
you seen the numbers bumping up some? The planes that I fly on 
don't seem to be as crowded as they were a year or two ago. Do 
we know anything or have any guesses about that?
    Ms. Fornarotto. We can get that information for you in 
terms of the actual numbers. We are more than happy to provide 
that to you.
    Mr. Duncan. Okay.
    Mr. Scovel. I have some information, sir. It is information 
that we have gleaned from the airlines themselves. As you know, 
the number of arrival flights was down last year from September 
through the end of this March by about 10 percent. The airlines 
are scheduling now for the summer. We anticipate from looking 
at their schedules that the number of flights will be down 
another 4 to 5 percent. So the airlines anticipate in their 
business plans that the number of passengers will be down.
    Mr. Duncan. All right. Ms. LoBue?
    Ms. LoBue. That is consistent with our forecast. We come 
out with a national forecast each March and we also agree that 
we see it down 5 percent overall over the system. There are 
some pockets where it is down even more, places with 
discretionary travel like Las Vegas. We are seeing places like 
New York, O'Hare, and Atlanta where still demand is staying 
strong. So it varies but overall you are seeing the economy 
take an effect.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    Mr. Boswell. Thank you, Mr. Duncan. Ms. Johnson?
    Ms. Johnson. Thank you very much. I guess I will pose this 
to anyone who would like to respond to it. Several months ago 
we had hearings trying to ready the legislation that will be on 
the Floor tomorrow. We talked all about a passenger's bill of 
rights or what have you. I noticed that you are considering a 
chronically delayed flight as an unfair and deceptive practice. 
I would like to know under what circumstances you are 
considering that.
    I had more concerns that FAA wasn't doing its job in terms 
of oversight than I had for late flights. Many times the 
weather has a great deal to do with the late flights. I can 
appreciate the attention given to that but we are in that 
weather now to some degree in my area where I fly, and I would 
rather be on the ground waiting somewhere when the turbulence 
is going on.
    How do you separate that from making sure that the planes 
are safe, that you can understand the mechanics, and that you 
have some type of code sharing? How do you do oversight for 
that?
    Ms. Fornarotto. In terms of chronically delayed flights, 
the standard our Enforcement Office currently uses a delay of 
more then 15 minutes on more than 70 percent of the operations 
per quarter. Within the rulemaking, we do propose changes and 
we are currently evaluating them. I know the IG has recommended 
some changes; I know passenger rights groups have recommended 
some changes.
    In terms of your safety question, without a doubt--FAA can 
chime in if they want to--but without a doubt we are very 
consistent that planes are not to take off unless conditions 
are safe and that all the safety checks before takeoff occur 
before aircraft take off.
    Ms. Johnson. Do you do an analysis of the lateness? I don't 
know what is considered chronic. How do you determine what is 
chronic and what kind of analysis do you do?
    Ms. Fornarotto. Currently our Enforcement Office uses the 
standard of more than 15 minutes on 70 percent of the flights 
within a quarter of a calendar year. So that is the standard 
our Enforcement Office uses to move forward on enforcement 
actions. There have been some proposed changes to that. We are 
working through that through the notice of proposed rulemaking.
    Ms. Johnson. I was not impressed with Mr. Barattini 
[phonetic] or whatever his name was. I questioned him a number 
of times. He didn't have any idea what was going on at FAA. I 
hope that will change under this new Administration and that 
you will give more attention to your oversight.
    There were many complaints, not having necessarily to do 
with passengers but with how that Agency is run, how it was a 
revolving door of people going to work for the airlines and 
getting by. I want to see a report that that has changed. Thank 
you.
    Mr. Boswell. Thank you, Ms. Johnson. Mr. Boozman?
    Mr. Boozman. Thank you, Mr. Chairman. We often notice 
differences in the flight delay statistics that the IG Office 
presents, the numbers that FAA presents, and its contractors. 
Are you guys aware of those differences and can you help 
explain perhaps the discrepancy?
    Mr. Scovel. If I could, Mr. Boozman, good afternoon. There 
are differences in flight delay statistics primarily between 
FAA and my office. FAA uses a subset of airlines and a subset 
of causes, and it uses as its measure the flight plans that 
airlines file for each flight. Our office uses a somewhat 
different set. We look at all carriers, all causes, and as our 
measure we compare actual performance to what the airline 
published to consumers in advance as what its flight intentions 
would be.
    I can understand why FAA takes the route it does. Of 
course, it is looking for areas of operations where it has 
influence. So when it looks for causes of delay, it is looking 
for causes that can be linked to its own operation of the NAS. 
That is entirely appropriate. Our office has taken a different 
tack, however. We think that U.S. decision makers and certainly 
the flying public as consumers are more interested in the 
overall picture in delays.
    The two methods can result in significant differences. For 
the 7 or 8 months that ended in March 2009, FAA, for example, 
reported an on-time performance of 88 percent under their 
measure. By our measure, the on-time percentage was 78 percent. 
So there are significant differences.
    Mr. Boozman. Yes, ma'am?
    Ms. LoBue. If I could also clarify, the Inspector General 
is absolutely right that we do have a data source, we call it 
OPSNET, Operations Network, that our air traffic system folks 
use on a daily basis to see how the system worked yesterday. 
But we also do look at the same data sources that the IG looks 
at. We do look at the BTS data that is collected by the 
Department. We compare that to the operations planning data and 
try to keep that in sync.
    I will assure you that the testimony today and FAA's 
portion of that is all consistent with the same data sources 
that both the Department and the IG looks at. So we have been 
paying attention over the last year as we have had these 
conversations on delay statistics to make sure that we do use 
consistent data sources. Thank you.
    Mr. Boozman. Very good. That is very helpful.
    We have another issue that has come up, especially with the 
summer traffic and things. I am from Arkansas and the Arkansas 
delegation has asked in the past--there is a reorganization 
going on with the Memphis tower and that reorganization has 
been underway--what we ask is that it go ahead and be really 
defined fully once the new FAA administration is put into 
place. As a result of the delegation asking, that was delayed 
until I think in June. But I would just request that it go 
ahead and continue to be delayed since things have run a little 
bit late, that the final process be then.
    I am the senior Republican Member in the delegation. My 
wife reminds me I am also the junior Member in the delegation 
since I am the only Republican. But it really is a very 
bipartisan thing. So again, that would be helpful if you guys 
could review that. We appreciate your help. We appreciate all 
you guys do and really look forward to working with you this 
Congress. Thank you very much.
    Mr. Boswell. Thank you. Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman. Ms. Fornarotto, you 
are currently undergoing a proposed rule relating to 
chronically delayed flights as an unfair and deceptive 
practice. I am wondering what the penalty is for violating this 
rule should it go into effect.
    Ms. Fornarotto. At this point, our Enforcement Office uses 
a standard as I said to Ms. Johnson. It is 15 minutes or more--
--
    Ms. Hirono. No, I wasn't asking about the standard. I 
wonder, what is the penalty? What happens if you violate an 
unfair and deceptive practice rule?
    Ms. Fornarotto. So if you fall under the chronically 
delayed standard that we currently use, our Enforcement Office 
will send a notice to the carrier based on whatever flights, 
whether that carrier has one flight or 10 flights, for that 
quarter. They get a warning to see if they can get it fixed in 
that next quarter. If it is still not fixed in the subsequent 
quarter, we then will take enforcement action. An airline can 
be fined $27,500 per violation.
    Ms. Hirono. Per violation? Have you ever imposed such fines 
on any airline?
    Ms. Fornarotto. I don't have that information but we can 
get that for you.
    Ms. Hirono. Do you currently have other instances or 
certain conditions and situations that are already by rule 
deemed an unfair and deceptive practice?
    Ms. Fornarotto. We do. We have a variety of issues that 
fall under unfair and deceptive practices. I can give you a 
recent example: When airlines started charging baggage fees, we 
said that it needed to be transparent. People needed to know 
what those fees were up front. We told airlines where they had 
to put that information so consumers were aware of those fees 
because we did consider that an unfair and deceptive practice 
should that information not be public and transparent and 
things of that nature. So that is just an example of something 
else that would fall under that. If you want more specifics, we 
can get that for you.
    Ms. Hirono. Actually, I would be very interested to know 
those kinds of conditions that are deemed unfair and deceptive 
with regard to passenger and customer service and those kinds 
of areas. I don't need it for every other thing. Then I would 
be interested to know what kind of enforcement actions have 
been taken. How many times have fines been imposed versus 
warning letters and all of that?
    To the extent that a lot of the information that has to do 
with how you assess airline performance is vis-a-vis customer 
complaints, how easy is it for customers to complain when they 
encounter situations that are really irritating and/or 
otherwise not satisfactory?
    Ms. Fornarotto. Basically, they can go to the web. We have 
an address at airconsumer.dot.gov. They can go right on the 
website and file a web-based complaint. It gets sent 
immediately to our Enforcement Office for them to take a look 
at. I was actually just on the website over the weekend and 
then today to make sure everything was up and running. It is 
very easy; it is very easily formatted for consumers.
    There is also our DOT headquarter address, which I can 
provide to the Subcommmitee for the record, and a (202) 
telephone number where people can call in as well.
    Ms. Hirono. Wouldn't it be even easier if the airlines just 
passed out a piece of paper with this kind of information on 
it? Because of course I have experienced various kinds of 
delays and everything else but I have never filed a complaint. 
But if someone were to give me a sheet of paper there, I would 
probably fill it out. That might give you a more accurate 
picture of what is really going on. Would that even be 
contemplated?
    Ms. Fornarotto. We can definitely take a look at that. 
Again, in the context of the NPRM we are taking all 
recommendations by passenger rights groups, by the IG, and by 
Members. You guys have spoken through the provisions in the FAA 
Reauthorization Bill. So we are taking all of that into 
consideration as we move forward towards a final rule.
    Ms. Hirono. I think we should make it as easy as possible 
for passengers to opine, especially when you use that as a 
basis for making some changes and contemplating rules changes.
    Mr. Scovel mentioned that perhaps in this proposed rule you 
should be more specific as to the limits for the delays, et 
cetera, in terms of hours. Would you consider that a reasonable 
suggestion? Would you think about that?
    Ms. Fornarotto. All of that would be in the context of the 
notice of proposed rulemaking so I can't speak specifically to 
it. But I can say that we take the IG recommendations very 
seriously. We are taking those into account as we move forward 
on the proposed rulemaking.
    Ms. Hirono. Thank you. Thank you, Mr. Chairman.
    Mr. Boswell. You are welcome. Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman. This question is I 
suppose addressed actually to any of you. A Member from 
California this week asked me if I was on the Aviation 
Subcommmitee. She told me what I can only tell you is, in my 
view, a shocking revelation. She told me that another Member 
had a similar experience. This was a Member who was supposed to 
land in California. She landed in California, in Oakland, and 
she was told that they didn't have enough fuel to get to her 
last stop. I don't remember if it was L.A. or San Francisco. 
She said there were no inordinate weights, just the normal kind 
of weight. Could you explain how that could possibly happen?
    Ms. LoBue. I know once the high price of fuel hit, that 
airlines looked at what the weight of the planes were and how 
best to economize. That said, I think they are incentivized to 
be as safe as possible. So it is surprising that you would find 
a situation like that.
    Those are the kinds of instances we would want to know 
about. If you have particulars, I think we would love to have 
more conversation with you. We take those items very seriously 
because they do go directly to air traffic safety. Thank you.
    Ms. Norton. Well, this is a very careful and responsible 
Member. I am going to suggest that she direct this to you, 
particularly since she said there was another Member who had a 
similar experience.
    Incentivizing for safety is not good enough. The notion of 
running out of fuel under what were not abnormal conditions--
even given what frankly is a lot of sympathy that I have for 
the airlines--really casts doubt upon your oversight. I will 
see to it that you get that information.
    Could I ask you, are pilots on commuter aircraft trained in 
the same way as pilots on larger aircraft? Don't all speak at 
once.
    Ms. LoBue. I will talk to that. In the early 1990s, the FAA 
put in a number of rules and worked toward one level of safety 
for regional air carriers and main line air carriers. I think 
we have looked at the Colgan air tragedy as a great loss, but 
some of the information that came out at the NTSB hearing 
raised issues that we will be looking at.
    Ms. Norton. Are they trained in the same way or not today?
    Ms. LoBue. They have the same regulations and the same 
requirements.
    Ms. Norton. And the same qualifications?
    Ms. LoBue. And the same qualifications. That said, there 
are differences. You tend to get less experienced pilots at the 
regional airlines, with them moving up in degree to the main 
lines as they get more experience.
    But that is an area we will be looking at very closely. Our 
designate for Administrator testified yesterday that that is an 
area he is very much focused on. He intends to look at it very 
closely.
    Ms. Norton. Well if they are going to move up, they 
obviously should not be moving out without having comparable if 
not exact qualifications. The more we learn, the more we are 
inclined to believe that was a preventable tragedy. We are used 
to tragedies that cannot be prevented in the airlines. I am 
extremely sympathetic with those. But this is very troubling.
    Since 9/11, the Nation's capital, capital in many ways of 
the world, has been without both helicopter and general 
aviation service for all intents and purposes. Only a few years 
ago before the present majority came to power, only when the 
last majority was in power and there was wholesale agreement 
within the Committee did we get any return of general aviation 
service. That was only after the Chairman of the Full Committee 
in this very room threatened contempt on the officials--I 
believe they may have been FAA officials--who kept double 
talking the Committee.
    Now what we have is essentially a signal to the world that 
seven or eight years, whatever it turns out to be, after 9/11 
we are not capable of protecting our capital and thus have this 
kind of service. Before 9/11, there were 200 general aviation 
flights a month. That is what you might expect in the national 
capital region that not only contains the entire Federal 
presence but one of the highest producing parts of our economy. 
Maybe we ought to have less of that because of climate change, 
but that obviously is not what has happened here.
    In response to the Committee, we got what can only be 
called an insult to the Committee. They said okay, you want 
general aviation in the Nation's capital, this is what we are 
going to do. They imposed the kinds of regulations on general 
aviation that in essence thumbed its nose at the Committee. 
Anyone coming in on a general aviation flight has to carry a 
Federal Marshall, of whom there are very few available. They 
have to stop someplace away from the capital at another port 
that they call a gateway. They have to have armed guards 
onboard, which calls for huge amounts of paperwork.
    So the Nation's capital has gone from 200 flights per month 
to 200 per year. In essence, the Federal Government through 
regulation has deliberately shut down general aviation in the 
Nation's capital. Meanwhile, those parts of the Country where 
one might imagine general aviation flights might be most 
hazardous were up and running within days of 9/11. New York 
City was relieved of any restrictions within days. Despite its 
world famous skyscrapers, it has aviation virtually every 
single minute. How can you account for this treatment of the 
Nation's capital so many years after 9/11?
    Ms. LoBue. We work our regulations in accord with the 
Department of Homeland Security. I understand the impact on GA. 
I think the FAA over the years has been very much an advocate 
of general aviation and the benefits that it gives to the 
Federal economy. To the extent that we can help work with the 
Department of Homeland Security and TSA towards this issue, we 
look forward to engaging with the Committee.
    Ms. Norton. Let me ask you to do this: That is too general 
an answer to be helpful. I understand that you may not have 
expected this question. My staff has been told that there 
exists a time line, which may mean an actual revision. Could I 
ask that within the next 14 days you get to the Chairman of 
this Subcommmitee a copy of the time line for returning general 
aviation to Ronald Reagan Airport?
    Ms. LoBue. I will look into that and try to expedite it. 
Yes, ma'am.
    Ms. Norton. Thank you very much. Thank you, Mr. Chairman.
    Mr. Boswell. Thank you, Ms. Norton. You sure hit on some 
key points for me, too. I appreciate your questions.
    Mr. Griffith?
    Mr. Griffith. Mr. Chairman, thank you. I have got some easy 
ones here.
    I would like to make sure that our airlines are instructing 
our pilots in how to use their microphones back to the 
passenger area. Oftentimes I can't understand them so I don't 
know whether they are tired, don't care, or what. So that would 
help us, the consumers, a great deal.
    Also, I don't know whether to imprison the people who are 
designing the seats on some of our aircraft. Or should we have 
a national contest to come up with comfortable seating? Since 
it is a quasi-monopoly and a privilege given to the airlines to 
serve our public, they really have no voice. I think a question 
was asked about how to voice a complaint. I think all of us 
that have been on the airlines have no idea who designed some 
of the seats given how long we have had to sit in them.
    On deplaning, I think you need to be aware that there are 
probably 15 percent, or even as high as 20 percent, on some 
flights who are clinically claustrophobic. This is not a 
complaint that they are making idly. These are people who have 
panic disorders who are completely in control. They have 
probably geared up and sucked up and got on that airplane. To 
have someone that is insensitive to their wait I think is 
intolerable. I don't think we should tolerate it as a Country, 
nor should we allow an industry to serve us that is not 
sensitive to that.
    I know the bottom line is important but I think this is 
also very, very important. You are going to get some reactions 
from some of your passengers that are going to make the 
headlines. It is going to be through no fault of their own. 
They just can't control themselves. I am a physician, by the 
way, by training so I am sensitive to that.
    The other thing is how often do we culture the vents and 
the air for Methicillin-resistant Staph, resistant TB, and 
other infectious diseases and mold on our airlines? Is it done 
randomly or is it done consistently? Is it reported?
    Ms. Fornarotto. I don't know the answer and neither does 
Nancy. But we will get that information back to you very 
shortly.
    Mr. Griffith. If we are not doing that, I think it would be 
a good idea. We are so mobile today and it wouldn't take very 
much for something to occur that we could probably prevent with 
some very easy Microbiology 101. That would be a big help.
    The other thing is our regional airlines and our regional 
pilots that are maybe young up-and-coming major pilots, do they 
go by the same sleep days flying that all pilots go by? Or are 
they more loosely regulated?
    Ms. LoBue. We do have one level of safety. The regulations 
on fatigue and flight and duty time do apply equally. That 
said, obviously in light of what happened with Colgan, we will 
be looking at those issues very closely.
    Mr. Griffith. Thank you very much. Mr. Chairman, thank you.
    Mr. Boswell. Thank you, Mr. Griffith.
    Here at this time I want to thank the panel very much. I 
appreciate your preparation and your time. I look forward to 
getting the information back that was asked for. Thank you very 
much. Have a good day.
    I would like to invite the second panel to the table. I 
notice the friendly atmosphere at the table. That is good. We 
like that. Welcome to the table. And without a lot of ado, Mr. 
Meenan, we will start off with you. We appreciate your being 
here.

TESTIMONY OF JOHN M. MEENAN, EXECUTIVE VICE PRESIDENT AND CHIEF 
  OPERATING OFFICER, AIR TRANSPORTATION ASSOCIATION; JAMES M. 
  CRITES, EXECUTIVE VICE PRESIDENT OF OPERATIONS, DALLAS/FORT 
 WORTH INTERNATIONAL AIRPORT, AND MEMBER, AMERICAN ASSOCIATION 
OF AIRPORT EXECUTIVES AND AIRPORTS COUNCIL INTERNATIONAL-NORTH 
     AMERICA; PATRICIA A. FRIEND, INTERNATIONAL PRESIDENT, 
ASSOCIATION OF FLIGHT ATTENDANTS-CWA, AFL-CIO; AND KATE HANNI, 
  EXECUTIVE DIRECTOR, FLYERSRIGHTS.ORG, COALITION FOR AIRLINE 
                   PASSENGERS BILL OF RIGHTS

    Mr. Meenan. Mr. Boswell, thank you very much. We appreciate 
the opportunity to appear today.
    As both my written testimony and the testimony from the 
first panel make clear, the airline industry is making 
measurable, steady progress in dealing with customer service 
concerns. All of the trends that we look at are headed in the 
right direction. That translates into improving customer 
service.
    The progress has come for a variety of reasons, not least 
of which has been the intensive carrier focus on on time 
performance and the development of programs to constantly 
monitor delays and alert top management to extended periods of 
extended delay. These programs, along with the companion effort 
to develop contingency plans that Mr. Crites will be discussing 
in more detail, have gone a long way toward meeting the needs 
of our customers.
    We know, of course, that there continue to be rare 
situations in which prolonged delays do occur. We appreciate 
and indeed share the frustrations of passengers on those rare 
delayed flights that we all read about in the newspapers or see 
on TV. There are some who would call for legislation or 
regulation to prohibit these thankfully rare events. We think 
that would be a mistake. As I mentioned, we are making 
measurable progress. With some 20,000 flights a day, more than 
six million a year, we clearly cannot afford to manage by 
anecdote. Nor do we think it wise to legislate or regulate by 
looking only at anomalies.
    The people who are closest to the situation tell us that 
hard deadlines to return a flight to a terminal or otherwise 
deplane passengers are going to result in more rather than 
fewer inconvenienced passengers. We believe them and we think 
you should as well. My written testimony describes in more 
detail why that is the case. We know too that the key drivers 
of delays, misconnected baggage, missed and canceled flights, 
and all the other ills of the system are bad weather and system 
congestion.
    We recognize too that a slumping economy and reduced 
transportation demand have temporarily removed some of the 
stresses from the system. In effect, what we have now is a 
brief window of opportunity to expedite the deployment of our 
long overdue modernized air traffic management system. We think 
it is possible to get NowGen, as we call it, substantially in 
place in the next three to four years.
    Again as my written statement discusses, by making about 
five new technologies and the procedures to allow them to 
really deliver system capacity a key national priority, we know 
that system performance along with beneficial results for 
customers and the environment can be dramatically and 
permanently improved. Even after the economy and transportation 
demand come back. If we do not act now, though, we know we will 
all be deeply frustrated.
    You also asked to hear a bit about the industry's response 
to the recent H1N1 flu outbreak. While airlines and the FAA are 
not in the public health business, we work very hard to protect 
the health of our employees and our customers. With the very 
first reports of the outbreak, we were communicating constantly 
with the CDC as well as other Government agencies. We worked 
with the airports and our international partners to ensure a 
coordinated response following CDC's established protocols for 
infection control.
    The airlines stocked hand sanitizers, increased the supply 
of masks for use with sick passengers, and took other common 
sense health precautions consistent with CDC guidelines. 
Equally important, we began communicating with our passengers 
and our employees all the information we were receiving from 
the CDC and the WHO.
    Finally, I wanted to take just a moment to comment on an 
absolutely ludicrous suggestion by some in the airport 
community that the limited experience that some airlines have 
had in generating ancillary revenues recently have left them 
somehow awash with cash and justify a massive 26 percent tax 
increase in the form of an increased PFC charge, a passenger 
facility charge. The fact that carriers have had some limited 
success with modest new revenue generation does not change the 
fact that the airlines have lost $36 billion from 2001 through 
2008. Data just coming out the other day indicated that 2008 
losses alone amounted to some $9.5 billion.
    It is worth remembering that at the core, aviation is all 
about the profitable sale of air transportation. At some point, 
the airlines that drive this economic engine that sustains 
Government services, airports, and a wide share of the Nation's 
economy have got to make the kind of sustained earnings 
necessary to support their cost of capital. If that does not 
occur, the future is going to look very dark not just for the 
airlines but for our economy in general. An increased PFC is 
not the place to start improving the situation.
    Thank you. I will look forward to responding to your 
questions.
    Mr. Boswell. Thank you. Mr. Crites?
    Mr. Crites. Mr. Boswell, good afternoon and thank you for 
inviting me to participate in this hearing.
    I am here today to provide insight into airport contingency 
planning. I would like to begin by saying that safe flight is 
accomplished through a close, industry-wide partnership with 
communication, collaboration, and coordination across all 
service providers. Contingency planning is no different. 
Whether an emergency is caused by weather or a contagious 
disease, there is a need to have all service providers open for 
business and openly partnering to address passengers' needs.
    In reality, it has been largely left to the airlines and 
FAA to accomplish this task. However, there are critical 
services that can only be provided by the other aviation 
stakeholders such as airports, TSA, CBP, concessionaires, and 
ground transportation providers.
    The good news is that the aviation industry developed a 
model contingency plan to address this issue through the DOT 
Tarmac Delay Taskforce, which we have implemented at DFW. First 
off and most importantly, the plan calls for airport service 
providers to simply stay open for business. The same holds true 
for TSA and CBP as the situation warrants. Second, the plan 
calls for all stakeholders to share and integrate their 
contingency plans to ensure that all parties are aware of what 
is occurring and to enable mutual support in addressing 
passengers' needs. Finally, it calls for partnering between the 
airlines and airports for the ground handling and deplaning of 
passengers to avoid the types of unacceptable situations that 
have been experienced by passengers stranded on aircraft.
    Diverted flights are called out for special attention. The 
plan recommends that the FAA and airlines avoid diverting 
international arriving flights to airports lacking CBP 
resources. Once again, all stakeholders are expected to be open 
for business to properly receive and process flights. This 
includes the ability to degate or properly ground handle the 
aircraft and to provide concessions support and TSA and CBP 
passenger screening as may be required.
    DOT earlier this year issued an NPRM for enhancing 
passenger protections by requiring airline contingency plans. I 
would offer that airline plans should include a requirement to 
coordinate their plans with all airports at which they provide 
scheduled or charter service.
    I would now like to talk to the value of this partnership 
as it relates to the emergency response to contagious disease 
outbreaks or pandemics. First, extensive partnering has been 
developed and effectively deployed at the local airport level 
to address diseases such as SARS, bird flu influenza, Ebola, 
and the like. Additional partners are brought to the table, 
including CDC and local public health officials, to provide 
effective real time and tailored response guidance. This 
expanded team currently addresses a wide variety of medical 
concerns including yearly flu season disease outbreaks.
    This system was placed in action on April 28 at BWI Airport 
when an AirTran flight arriving from Cancun had two individuals 
onboard exhibiting flu-like symptoms. AirTran contacted BWI 
officials who activated their emergency plan. This included 
contacting the CDC quarantine station in Washington, D.C. While 
the two individuals were found not to have the H1N1 flu, it did 
show that the system worked.
    Can we do better? Absolutely. While public health issues 
vary greatly, a process for aligning stakeholders at a level 
similar to that developed in the model contingency plan I just 
spoke to does not yet exist. However, I do know that DOT is 
working with ACI-North America, ATA, and IATA as well as CDC 
and DHS on developing just such a plan. In summary, the 
challenge is to ensure everyone is open for business and 
continuously communicating, collaborating, and coordinating 
their efforts to address any and all passenger needs.
    In closing, I want to thank you for your support of the 
funding necessary for airports to be able to finance necessary 
safety and capacity infrastructure. Your support of the 
increase in the PFC user fee as well as the increase in AIP 
funding is greatly appreciated. Also, as Chairman of the 
Aviation Group for the Transportation Research Board, I want to 
express my sincere appreciation to this Subcommmitee which 
helped to create and fund this highly effective airport 
cooperative research program.
    Thank you.
    Mr. Boswell. Thank you. Ms. Friend?
    Ms. Friend. Thank you, Mr. Boswell. As the world's largest 
flight attendant union, we do appreciate having the opportunity 
to testify at today's hearing. As the front line employees 
responsible for the safety and security of the aircraft cabin, 
we provide a unique perspective on these issues.
    I would first like to focus on the topic of emergency 
contingency planning. The recent health emergency surrounding 
the spread of the H1N1 virus once again brought air travel and 
the spread of infectious disease to the forefront of Government 
and public attention.
    By nature of our work, flight attendants come in contact 
with hundreds and possibly thousands of passengers every day. 
We are keenly aware of our role in the possible transmission 
and prevention of a disease during a public health emergency. 
Our interest is not only to protect our members from exposure, 
but also to minimize the possibility of our members 
inadvertently spreading the disease.
    In this most recent public health emergency and in previous 
outbreaks such as SARS in 2003, we called on the FAA to issue 
directions to airlines that would minimize the risk of exposure 
to flight attendants and to do our part to prevent the spread 
of an infectious disease. This year, AFA-CWA sent a letter to 
the FAA in the very early days of the H1N1 virus outbreak. We 
requested that the FAA issue an emergency order to all U.S. 
carriers requiring them to take immediate and specific steps.
    Among those steps were requirements that the airlines 
provide flight attendants with non-latex gloves and masks; that 
the airlines allow flight attendants with flu-like symptoms 
themselves to call in sick without risk of discipline; that 
they require airlines to develop, implement, and enforce 
passenger screening standards as recommended by the WHO, the 
CDC, or the relevant national health official; and that they 
require all U.S. airlines flying to and from Mexico to have 
operative, potable water systems, soap, and sanitary towels in 
place for hand washing during flight operations.
    The FAA's response was totally unsatisfactory and 
unfortunately most carriers did not implement these basic and 
effective steps during the outbreak of H1N1. Instead, the 
airline management in this Country seems more concerned about 
the appearance and views of flight attendants as marketing 
tools rather than our proper role as safety and security 
professionals. The health of flight attendants and the 
traveling public should not be subject to the marketing 
concerns of airline management.
    In order to minimize the threat posed by a public health 
emergency, several permanent and mandated steps must be taken 
to mitigate that threat:
    First, we believe it is necessary to provide and apply 
OSHA-like or basic OSHA workplace safety and health protections 
to the aircraft cabin workplace. OSHA protections would provide 
an excellent benchmark for reacting in a proactive manner 
during public health emergencies.
    Another permanent step that can be taken immediately 
relates to the aircraft's onboard water supply. It is not 
uncommon for crew and passengers to find an inoperable lavatory 
on a flight, which limits timely access for flight attendants 
and passengers to properly wash their hands. We advocate that 
at a minimum each class of service in the aircraft must have at 
least one operational lavatory for an aircraft to be allowed to 
operate.
    We also believe that aircraft for both international and 
domestic flights must contain adequate supplies of alcohol-
based gel per recommendations of the CDC. This will help to 
reduce the spread of disease and infections when onboard 
facilities are inadequate.
    I will turn now to the outlook for summer travel. As I sit 
here today, Mr. Chairman, I have decades of experience working 
in this industry. As much as I would love to say that there is 
a magic wand that we can wave and make the summer travel season 
flawless, unfortunately we all know that is impossible. The 
load factors will increase, particularly as capacity is 
reduced. Mother Nature will cook up the inevitable summer 
storms. The aircraft will stack up on runways and circle above.
    Each summer and during other weather events throughout the 
year, we hear the horror stories. We get it. We get it because 
we are there, too.
    The voluntary measures by airlines and the attempts to 
enact so-called passenger bill of rights legislation are simply 
band-aid approaches to a much larger systemic problem that 
plagues our Nation's aviation system. The solution often 
referred to as NextGen needs to be rebranded as NowGen as the 
work to update our air traffic control system must be done as 
quickly and safely as possible. Any passenger bill of rights, 
no matter how well intended, will not solve the complex air 
traffic control problems until we upgrade the outdated 
equipment that currently cannot properly handle aircraft 
traffic or plan for predictable summer storms.
    In the current environment, our sympathy for a passenger 
bill of rights is tempered by what we know will occur if such 
legislation is enacted. The Nation's flight attendants will 
become trapped between Federal mandates and management's 
inability or unwillingness to follow the law. The Nation's 
flight attendants will be put in a no-win situation when the 
mandates are not followed. Management is not the cabin having 
to explain the violations, but we are. The airport authorities 
are not onboard to explain why gate space or facilities are not 
available and why extended taxiway waits are occurring.
    We believe that the best solution for flight attendants, 
passengers, and the aviation industry is for the House and 
Senate to follow the lead of this Committee and pass the FAA 
Reauthorization legislation now so that work can begin to fix 
the real problems this beleaguered industry faces.
    Again, I thank the Committee for giving us this 
opportunity. I would enjoy answering any questions that you may 
have.
    Mr. Boswell. We thank you. Ms. Hanni?
    Ms. Hanni. Thank you, Mr. Boswell, Ranking Member Petri, 
and Members of the Committee. On behalf of FlyersRights.org, I 
thank you for inviting me again to appear at this hearing on 
consumer rights.
    We appreciate the airline passenger rights provisions you 
have included in House of Representatives 915: The FAA 
Reauthorization Act and we recognize the improvements that you 
made compared to last year's bill. But let us not break our 
arms patting ourselves on the back for requiring that airlines 
provide basic human necessities like food, water, temperature 
controls, and working bathrooms, not when passengers are being 
stranded still on the tarmac for seven, eight, or even nine 
hours.
    Within just the past few weeks, Air Canada and three other 
Canadian airlines have voluntarily instituted a 90 minute limit 
on tarmac delays. That is because a very tough, no nonsense 
Canadian airline passenger bill of rights is currently making 
its way through Parliament that would limit tarmac strandings 
to one hour. The bill is C-310. The author of the bill, Jim 
Maloway, is Member of Parliament and is actually here with us 
today to witness my testimony. The other is Bruce Cran, who is 
the President of the Consumer Association of Canada. They are 
working very hard to get their bill passed.
    Here at home, though, the FAA Reauthorization Bill leaves 
it up to the airlines themselves to decide when we will be able 
to get off the plane and back to the terminal. There are no 
uniform limits at all.
    Last month in Philadelphia, a blind 62 year old former 
interpreter for the European Union was dragged off a plane in 
handcuffs just for asking why the aircraft was still sitting on 
the tarmac and how long it would be there. Paying passengers 
deserve to know they won't be sitting on the tarmac for nine 
hours.
    We do want to acknowledge the provision you added requiring 
that airports receiving international flights have contingency 
plans for dealing with stranded aircraft. It is about time. Too 
often passengers returning from international flights have been 
stranded on arrival for hours at a time. But absent a plan 
regarding the airlines to allow the passengers off, the airport 
plans will be moot.
    Just last month, our hotline received a call from a 
passenger onboard Delta Flight 510 coming in from the Turks and 
Caicos, bound for Atlanta but diverted to Columbia, South 
Carolina because of a thunderstorm. He and his family sat on 
the Columbia tarmac for almost six hours with no food, no 
water, and rest rooms that had stopped working. His two year 
old had not eaten in 10 hours. After getting off the plane, the 
130 or so passengers were herded into a concrete subterranean 
room with 20 chairs for almost 140 people. There they stayed 
for another hour, all because the airport and the airline 
lacked adequate plans for dealing with an incoming 
international flight.
    Here is what FlyersRights.org believes ought to be included 
in the FAA Reauthorization Act this year: We want a single, 
enforceable, industry-wide limit on the amount of time 
passengers can be held onboard an aircraft on the tarmac. We 
call it a right of deplanement. Passengers call it basic common 
sense. We also want a requirement that airlines produce 
contingency plans for international flights landing at domestic 
airports. Airport contingency plans alone are not enough, as we 
saw with Flight 510.
    I ask you to think of the people who have contacted 
FlyersRights.org in the last month. A 72 year old woman, a 
diabetic, was stuck on the Austin tarmac on a diversion for 
four hours without food or water. Her daughters, frightened to 
death, were trying to find out where she was. She also has 
early stage Alzheimer's. A blind man was hauled off to a 
Philadelphia jail just because he asked how long the airline 
was going to keep him on the tarmac.
    Just try to imagine eight or nine hours in a sealed tube 
with the screaming children, the people in coach in the middle 
seats, and the business people who miss appointments and 
productive time. For them, these are not the friendly skies. It 
is time they treated the American flying public like paying 
customers, not like cattle.
    I would like to address the frequency with which this 
happens. It is a daily occurrence that planes sit for three 
hours or more. Data provided from 2008 showed 1,320 flights 
that sat for three hours or more on the tarmac. That is 132,000 
people who sat for more than three hours on the tarmac last 
year.
    James May testified a few days ago that the economic loss 
to passengers due to flight delays is $41 billion a year. That 
seems to me like a double whammy to the flying public who is 
already smarting from the economy.
    Thank you very much for letting me testify. I will look 
forward to your questions.
    Mr. Boswell. Thank you for being our conscience. Let me 
just make a quick comment. I think everybody is trying hard.
    Ms. Hanni. Pardon?
    Mr. Boswell. I think everybody is trying hard. I appreciate 
what you have brought to us. We all have a great respect for 
the men and women of the cockpit. We should. Our lives are in 
their hands. But I will tell you, I have just as great an 
appreciation for those flight attendants that put up with us, 
the public. They are a great bunch. They try hard. There are 
things we can do better and I think we are working at it.
    Mr. Duncan, I know you have some things to do. I would like 
to offer you some time.
    Mr. Duncan. Mr. Chairman, I have a group of people waiting 
for me out there in the waiting room so I won't ask any 
questions. But I would like to say that several years ago I 
heard on the NPR news that the Russian Aeroflot system 
sometimes had delays as long as four days. A plane wouldn't fly 
and then they would say come back tomorrow. We are so fortunate 
to have the aviation system that we have in this Country. It is 
the best in the world.
    Now, everybody should always be trying to do better and to 
do more. If you lose the desire to improve, it is sad for you 
and for the people you work for. But there is a human nature 
tendency that if people have 99 good flights and one bad one, 
the one they will tell everybody about is the bad one.
    I fly and for many years now I have flown at least a couple 
of times a week, sometimes more. I am amazed. In fact, I think 
it is miraculous how many of these flights arrive on time. I am 
amazed that we have so many millions and millions of not only 
passengers that arrive on time and safely, but that we have all 
these hundreds of millions of bags with just a tiny percentage 
that are lost.
    I think it is good that people are here pointing out some 
problems and ways that things can improve. But I also think we 
need to realize that we have by far the best aviation system in 
the world. We need to be a little more grateful and 
appreciative of what we have instead of just always blasting 
away at everything. Thank you.
    Mr. Boswell. Well, I thank you for those remarks. At the 
same time, Mr. Duncan, I think that if you and I had to put up 
with a three or four year old for eight or nine hours on a 
tarmac we would probably be asking for help. Anyway, I 
appreciate that, too.
    Mr. Meenan, ATA participated in that national taskforce 
which established guidelines for airlines and airports by 
developing model contingency plans. Do all airlines have 
contingency plans in place? Were they updated to reflect the 
recommendations of the taskforce?
    Mr. Meenan. All of our members do have contingency plans in 
place and they are, in fact, updated all the time.
    After the recent Delta incident, they went back and updated 
that plan once again. There were plans in place for dealing 
with the arriving international flight at that particular 
airport. Unfortunately, the airport had been reconfigured 
during the period between when the plan was made and when the 
diversion occurred.
    These are now being updated on an annual basis to make 
absolutely positive that we can deal with these situations as 
they arise.
    Mr. Boswell. Thank you. You state that the airlines have 
been ``able to draw on well established practices to provide 
medical attention to ill passengers and crew, and to report 
communicable diseases to public health officials.'' Would you 
elaborate on that?
    Mr. Meenan. In the immediate aftermath of the reporting of 
the H1N1 flu, we went into constant communication with the CDC 
and with a whole cadre of Government agencies that were 
involved with that. We also were communicating as I said with 
the airport community, with the international aviation 
community, and with our employees to get the best possible 
information out there as quickly as possible. We worked at not 
being unduly alarming but at the same time dealing responsibly 
with these issues. We think it was quite successful.
    In the after action assessment of things, there were 
obviously some plans that were put in place following SARS that 
expected a longer period of preparation to be available to the 
United States to deal with these threats. It is clear that that 
piece of the plan needs to be rethought. That is going on right 
now as well.
    Mr. Boswell. Thank you very much. Mr. Crites, the DFW many 
years ago--I will date myself, I was instructing at the 
helicopter school over at Mineral Wells--I watched that plan 
starting to develop. It is quite an operation. You do have a 
lot to deal with and I appreciate it very much.
    But in your testimony you discussed the contingency 
planning guidelines document that came out of DOT's taskforce. 
To what extent has industry implemented these guidelines? Maybe 
some of the rest would like to comment as well.
    Mr. Crites. Thus far, sir, DFW hosted a number of 
workshops. We invited all of our airports that serve as 
diversion airports to DFW Airport to participate in that. What 
came from that is that all of those airports have developed 
response plans as it relates to an integrated fashion.
    Atlanta has also held a workshop. I know that L.A. and 
Pittsburgh are also going to be hosting these things to develop 
and implement these plans. But I do not believe that it has 
been fully implemented throughout the system yet.
    Mr. Boswell. Ms. Friend, did the airlines provide 
appropriate guidance to flight attendants on H1N1?
    Ms. Friend. They passed on the link to the CDC website. 
That is essentially what they did. Some were better than 
others.
    We actually conducted a survey of the 20 airlines we 
represent asking them three specific questions. Were they 
permitted to use non-latex gloves for the collection of 
essentially trash and used items? Did management have a relaxed 
disciplinary policy for flight attendants who thought they 
might be suffering some flu-like symptoms? And were they 
willing to accommodate schedule adjustments for pregnant and/or 
immune compromised flight attendants?
    The overwhelming response to numbers two and three was 
absolutely not. There was some limited response to number one, 
the reason being that airline management seems to think that 
flight attendants protecting themselves by the use of non-latex 
gloves would frighten the passengers. So most of them did not 
give permission for that even when flying into the high risk 
areas in Mexico.
    That is why we have repeatedly asked the FAA to mandate 
these sorts of provisions. We can't count on our employers to 
voluntarily do it.
    Mr. Boswell. Thank you. Ms. Hanni, you mentioned serving on 
the DOT's taskforce on lengthy tarmac delays. What was your 
role on this taskforce? Would you elaborate on that please?
    Ms. Hanni. Yes. I was a member of the taskforce, appointed. 
My role was to represent the consumer side. I was the only 
nonprofit consumer advocate on the taskforce, and I believe 
there were 36 members. It was a learning experience for me. I 
had not been on a taskforce before so I didn't really know what 
to expect in the end result.
    One thing I would like to say is that Jim Crites was a 
leader who came in with brilliant ideas, frameworks, and 
structures and a true understanding of how to actually solve 
some of the problems that we are discussing. He has implemented 
at Dallas/Fort Worth exactly what he thought could be done and 
believes is possible.
    There are a lot of airports that have not adopted it. That 
is why we saw what we saw at Columbia, South Carolina and 
especially with some of the celebrated international flights 
like the K'taka Airlines flight and AeroMexico. Many of those, 
they simply didn't have a way to get the passengers off and put 
them in a sterile room.
    On the taskforce, the one olive branch that was offered was 
by TSA. They actually did a presentation for us where they said 
they would allow the airports and encourage the airports to 
have three things available: one, a sterile room where they can 
deplane international passengers on a diverted flight, two, 
that those people will be able to be accompanied out of the 
room and back to go to the rest rooms and get food for 
themselves, and three, that they will be able to be replaned 
without having to go through security again. They very strongly 
recommended that all of the airports adopt that, especially if 
they are airports that get diverted flights, that receive and 
are on the list to receive them.
    So we are a little discouraged that more airports haven't 
done what Jim has done. He has been very proactive and is a 
leader in the area of the airports actually having plans that 
work.
    Mr. Boswell. Mr. Meenan, do you have any comment to make on 
what she just said?
    Mr. Meenan. As I said, our airline members all have 
contingency plans in place which they update on a regular 
basis. They work with the airports that they serve to make sure 
that those contingency plans are effective at those airports. 
As to whether or not each of the airports has an independent 
contingency plan, I really am not in a position to comment at 
this point.
    Mr. Boswell. Okay, just for conversation, some of us, I 
know some people even here in this Congress, don't have a heart 
problem but we might have a physical need. There is no way they 
are going to sit out there for more than two or three hours at 
the most before they have got to have some kind of facilities. 
If the bathrooms are plugged up and so on, what do you tell 
that person? Do you have to declare an emergency to get a step? 
Is there any way they can get off the airplane and get back 
into the terminal?
    Mr. Meenan. Under the contingency plans that we have in 
place today, if a flight is delayed for a prolonged period on 
the order of two or three hours, most of the carriers do offer 
the opportunity to deplane if that is at all possible. They 
also make accommodations onboard to provide necessities for the 
passengers right now.
    There have been a lot of stories about all these 
nonfunctioning lavatories that basically have not proven to be 
the case when we have examined them in more detail.
    The fact is that what we are concerned about is not the 
contingency plans. We believe those are out there. Carriers are 
making hard calls on their own to determine when a plane should 
come back in from the runway if necessary. The problem is if we 
impose an absolute deadline of, say, three hours. Carriers are 
then going to manage so as not to violate that deadline. So you 
are going to start seeing airplanes coming in at two hours and 
15 minutes or two hours and 45 minutes so that they don't break 
the three hour rule.
    What will happen then is we will have substantially more 
cancellations; we will have substantially more passengers we 
are unable to accommodate on the next scheduled flight; we will 
have people waiting in airports or in the city where the 
airport is located potentially for days when they could have 
gotten out. The airline is in the best position to know if that 
flight has a fairly good potential to take off before three 
hours and 25 minutes.
    What we are trying to avoid is a legislated or regulated 
hard deadline. It is going to make the system less user 
friendly rather than more user friendly.
    Mr. Boswell. Well, I can say from a frequent flyer 
situation, it really helps for the crew to keep you informed 
factually, not otherwise.
    Mr. Meenan. We are in absolute agreement.
    Mr. Boswell. Well, I think we will bring this discussion to 
a close. I want to thank all of you for your participation and 
your work. I think we will just keep working at this.
    I enjoyed seeing the Washington Post article, Airlines Post 
Rare Improvement in Customer Survey. That is a good sign. At a 
University of Michigan study, airlines have shown improved 
levels of care towards the passengers they have retained with 
satisfaction in service levels rising 3.2 percent. I bet Ms. 
Hanni would like to see it raised a little higher.
    [Laughter.]
    Ms. Hanni. We all would.
    Mr. Boswell. We all would. Thank you very much. This 
meeting is adjourned.
    [Whereupon, at 4:13 p.m., the Subcommmitee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9955.001
    
    [GRAPHIC] [TIFF OMITTED] T9955.002
    
    [GRAPHIC] [TIFF OMITTED] T9955.003
    
    [GRAPHIC] [TIFF OMITTED] T9955.004
    
    [GRAPHIC] [TIFF OMITTED] T9955.005
    
    [GRAPHIC] [TIFF OMITTED] T9955.006
    
    [GRAPHIC] [TIFF OMITTED] T9955.007
    
    [GRAPHIC] [TIFF OMITTED] T9955.008
    
    [GRAPHIC] [TIFF OMITTED] T9955.009
    
    [GRAPHIC] [TIFF OMITTED] T9955.010
    
    [GRAPHIC] [TIFF OMITTED] T9955.011
    
    [GRAPHIC] [TIFF OMITTED] T9955.012
    
    [GRAPHIC] [TIFF OMITTED] T9955.013
    
    [GRAPHIC] [TIFF OMITTED] T9955.014
    
    [GRAPHIC] [TIFF OMITTED] T9955.015
    
    [GRAPHIC] [TIFF OMITTED] T9955.016
    
    [GRAPHIC] [TIFF OMITTED] T9955.017
    
    [GRAPHIC] [TIFF OMITTED] T9955.018
    
    [GRAPHIC] [TIFF OMITTED] T9955.019
    
    [GRAPHIC] [TIFF OMITTED] T9955.020
    
    [GRAPHIC] [TIFF OMITTED] T9955.021
    
    [GRAPHIC] [TIFF OMITTED] T9955.022
    
    [GRAPHIC] [TIFF OMITTED] T9955.023
    
    [GRAPHIC] [TIFF OMITTED] T9955.024
    
    [GRAPHIC] [TIFF OMITTED] T9955.025
    
    [GRAPHIC] [TIFF OMITTED] T9955.026
    
    [GRAPHIC] [TIFF OMITTED] T9955.027
    
    [GRAPHIC] [TIFF OMITTED] T9955.028
    
    [GRAPHIC] [TIFF OMITTED] T9955.029
    
    [GRAPHIC] [TIFF OMITTED] T9955.030
    
    [GRAPHIC] [TIFF OMITTED] T9955.031
    
    [GRAPHIC] [TIFF OMITTED] T9955.032
    
    [GRAPHIC] [TIFF OMITTED] T9955.033
    
    [GRAPHIC] [TIFF OMITTED] T9955.034
    
    [GRAPHIC] [TIFF OMITTED] T9955.035
    
    [GRAPHIC] [TIFF OMITTED] T9955.036
    
    [GRAPHIC] [TIFF OMITTED] T9955.037
    
    [GRAPHIC] [TIFF OMITTED] T9955.038
    
    [GRAPHIC] [TIFF OMITTED] T9955.039
    
    [GRAPHIC] [TIFF OMITTED] T9955.098
    
    [GRAPHIC] [TIFF OMITTED] T9955.099
    
    [GRAPHIC] [TIFF OMITTED] T9955.100
    
    [GRAPHIC] [TIFF OMITTED] T9955.101
    
    [GRAPHIC] [TIFF OMITTED] T9955.040
    
    [GRAPHIC] [TIFF OMITTED] T9955.041
    
    [GRAPHIC] [TIFF OMITTED] T9955.042
    
    [GRAPHIC] [TIFF OMITTED] T9955.043
    
    [GRAPHIC] [TIFF OMITTED] T9955.044
    
    [GRAPHIC] [TIFF OMITTED] T9955.045
    
    [GRAPHIC] [TIFF OMITTED] T9955.046
    
    [GRAPHIC] [TIFF OMITTED] T9955.047
    
    [GRAPHIC] [TIFF OMITTED] T9955.048
    
    [GRAPHIC] [TIFF OMITTED] T9955.049
    
    [GRAPHIC] [TIFF OMITTED] T9955.050
    
    [GRAPHIC] [TIFF OMITTED] T9955.051
    
    [GRAPHIC] [TIFF OMITTED] T9955.052
    
    [GRAPHIC] [TIFF OMITTED] T9955.053
    
    [GRAPHIC] [TIFF OMITTED] T9955.054
    
    [GRAPHIC] [TIFF OMITTED] T9955.055
    
    [GRAPHIC] [TIFF OMITTED] T9955.056
    
    [GRAPHIC] [TIFF OMITTED] T9955.057
    
    [GRAPHIC] [TIFF OMITTED] T9955.058
    
    [GRAPHIC] [TIFF OMITTED] T9955.059
    
    [GRAPHIC] [TIFF OMITTED] T9955.060
    
    [GRAPHIC] [TIFF OMITTED] T9955.061
    
    [GRAPHIC] [TIFF OMITTED] T9955.062
    
    [GRAPHIC] [TIFF OMITTED] T9955.063
    
    [GRAPHIC] [TIFF OMITTED] T9955.064
    
    [GRAPHIC] [TIFF OMITTED] T9955.065
    
    [GRAPHIC] [TIFF OMITTED] T9955.066
    
    [GRAPHIC] [TIFF OMITTED] T9955.067
    
    [GRAPHIC] [TIFF OMITTED] T9955.068
    
    [GRAPHIC] [TIFF OMITTED] T9955.069
    
    [GRAPHIC] [TIFF OMITTED] T9955.070
    
    [GRAPHIC] [TIFF OMITTED] T9955.071
    
    [GRAPHIC] [TIFF OMITTED] T9955.072
    
    [GRAPHIC] [TIFF OMITTED] T9955.073
    
    [GRAPHIC] [TIFF OMITTED] T9955.074
    
    [GRAPHIC] [TIFF OMITTED] T9955.075
    
    [GRAPHIC] [TIFF OMITTED] T9955.076
    
    [GRAPHIC] [TIFF OMITTED] T9955.077
    
    [GRAPHIC] [TIFF OMITTED] T9955.078
    
    [GRAPHIC] [TIFF OMITTED] T9955.079
    
    [GRAPHIC] [TIFF OMITTED] T9955.080
    
    [GRAPHIC] [TIFF OMITTED] T9955.081
    
    [GRAPHIC] [TIFF OMITTED] T9955.082
    
    [GRAPHIC] [TIFF OMITTED] T9955.083
    
    [GRAPHIC] [TIFF OMITTED] T9955.084
    
    [GRAPHIC] [TIFF OMITTED] T9955.085
    
    [GRAPHIC] [TIFF OMITTED] T9955.086
    
    [GRAPHIC] [TIFF OMITTED] T9955.087
    
    [GRAPHIC] [TIFF OMITTED] T9955.088
    
    [GRAPHIC] [TIFF OMITTED] T9955.089
    
    [GRAPHIC] [TIFF OMITTED] T9955.090
    
    [GRAPHIC] [TIFF OMITTED] T9955.091
    
    [GRAPHIC] [TIFF OMITTED] T9955.092
    
    [GRAPHIC] [TIFF OMITTED] T9955.093
    
    [GRAPHIC] [TIFF OMITTED] T9955.094
    
    [GRAPHIC] [TIFF OMITTED] T9955.095
    
    [GRAPHIC] [TIFF OMITTED] T9955.096
    
    [GRAPHIC] [TIFF OMITTED] T9955.097
    
    [GRAPHIC] [TIFF OMITTED] T9955.102
    
    [GRAPHIC] [TIFF OMITTED] T9955.103
    
    [GRAPHIC] [TIFF OMITTED] T9955.104
    
    [GRAPHIC] [TIFF OMITTED] T9955.105
    
    [GRAPHIC] [TIFF OMITTED] T9955.106
    
    [GRAPHIC] [TIFF OMITTED] T9955.107
    
    [GRAPHIC] [TIFF OMITTED] T9955.108
    
    [GRAPHIC] [TIFF OMITTED] T9955.109
    
    [GRAPHIC] [TIFF OMITTED] T9955.110
    
                                    

</pre></body></html>
